APPENDIX
Complaint submitted 24 November, 2020 Matthew Staszak vs Judge J Phil Gilbert A
Supporting Transcript 16 April, 2020 Melissa Day employed by SIU

A-1

Supporting affidavit 15 June, 2020 William C. Jones

A-2

Previous Ethics Complaint filed against Judge J Phil Gilbert

A-3

Attachment "A"

Case No.

IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
MATTHEW L. STASZAK,
Complainant,
v.
UNITED STATES DISTRICT JUDGE,
J. PHIL GILBERT,
Respondent.

COMPLAINT AGAINST UNITED STATES DISTRICT JUDGE
J. PHIL GILBERT FOR THE SOUTHERN DISTRICT OF ILLINOIS

A. JUDGE GILBERT'S APPOINTMENT AND ELECTED POSITION AS
PRESIDENT OF THE BOARD OF TRUSTEE'S FOR SIU:

Judge Gilbert for the last several years has held an appointed position at Southern
Illinois University-Carbondale (SIU-C). Judge Gilbert was later elected as President of
the Board of Trustee's prior to Complainant's Section 2255 Evidentiary Hearings that
were held in March and April of 2018. Complainant's former attorney, Assistant Federal
Public Defender Melissa A. Day is employed by Southern Illinois UniversityCarbondale as a Trial Advocacy Professor. Ms. Day was complainant's appointment of
counsel during his criminal proceedings from 2012 through 2014. Complainant filed a
Section 2255 Motion on January 8, 2015 where he alleged serious prosecutorial
misconduct claims and ineffective assistance of counsel by Ms. Day. Both Judge Gilbert
and Ms. Day have deep-rooted positions and interests in Southern Illinois University,
that of its reputation and, of course, theirs too. Both Judge Gilbert and Ms. Day are
well-connected within the surrounding community by their positions that require
political decisions, interactions, and favors with members of the community and the
university. The Complainant has family relations that own businesses in the Carbondale
area that interact with political figures, students and faculty of SIU-C.
Complainant currently has a Petition for En Banc Rehearing on his Section 2255
Motion this being a result of a dismissal by District Judge J. Phil Gilbert on
1

Complainant's Section 2255 dated February, 21, 2020. See Case No. 20-1381.

B. THE COMPLAINT:

That Judge J. Phil Gilbert and AFPD Melissa A. Day were both directly
involved with SIU-C during Complainant's Section 2255 Evidentiary proceedings in the
Spring of 2018; and that Judge Gilbert continued to adjudicate Complainant's Section
2255 when he factually knew that Ms. Day was employed at the SIU-C law school. Ms.
Day testified as a witness for the Government during the 2255 Evidentiary proceedings
against the Complainant. Judge Gilbert was the SIU President Board of Trustee's during
this time.

That any adverse adjudication against Ms. Day from a decision rendered by
Judge Gilbert of Complainant's Section 2255 Motion could have been destructive and
devastating to Ms. Day's law-license and her position as an Assistant Federal Public
Defender.

That an adverse ruling against Ms. Day rendered by Judge Gilbert on
Complainant's Section 2255 could have resulted in and undergone scrutiny and media
coverage against Ms. Day and SIU.
2

That Judge Gilbert could have undergone public and political scrutiny as
President of the Board of Trustee's for a decision made in the affirmative of
Complainant, due the nature of Complainant's criminal indictment.

That Judge Gilbert's non-recusal from Complainant's 2255 was highly
prejudicial and bias against Complainant due to Judge Gilbert's Presidential position
thereof at SIU-C, and further due to Ms. Day's position at the SIU law school during
Complainant's Evidentiary proceedings as she gave witness testimony against the
Complainant.

That Complainant was harmed and prejudiced as a result where his Section
2255 was dismissed by Judge Gilbert on February 21, 2020. Case No. 3:15-cv-00020JPG. (Docs. 134 & 135).

That Judge Gilbert failed his duty and obligation to maintain public confidence
in the integrity and impartiality of the judiciary while conducting Complainant's Section
2255 when Ms. Day was a primary emphasis of Complainant's proceedings that was
against him and in favor of the Government.

That Judge Gilbert failed to recuse or disqualify himself under 28 U.S.C.
3

Section 455 from the Section 2255 matter and further allowed himself to continue to
adjudicate Complainant's 2255 case while he held a Presidential position located at the
same university as Ms. Day's employment.

That Judge Gilbert violated Legal Ethics, Judicial Conduct Standards, and
Judicial Cannons by not recusing himself from Complainant's 2255. This reflects
adversely on Judge Gilbert's impartiality and official duties as a United States District
Court Judge who sworn an oath thereof.

That Judge Gilbert's lack of impartiality reflects adversely of inappropriate
conduct, prejudice, and bias against the Complainant as a result.

That Judge Gilbert's Memorandum and Order, and Judgment rendered in
Complainant's Section 2255 reflects bias and impartiality against the Complainant.

That Judge Gilbert has been subject to previous complaints regarding
impartiality and inappropriate conduct as a Federal Judge concerning his involvement
with SIU and various judicial rulings during his judicial tenure.

4

C. ADDITIONAL INFORMATION TO THE COMPLAINT:

I. Former Williamson County Sheriff Dennis Presley:

Dennis Presley was formerly employed at SIU-C. In addition, Presley is a former
Williamson County, Illinois, Sheriff dating from 1994-1998. Back in 2010,
Complainant was contacted by Presley over Facebook and telephone. Presley had stated
that he would like to meet with Complainant the next time he arrived in southern
Illinois. Complainant agreed and traveled from North Carolina to Illinois on leave to
visit his family and while home he met with Presley. Over a period of six months,
Complainant had met with Presley on several occasions with friends and witnesses at
various locations such as the Midland-Inn (Murphysboro, Illinois), Teddy's Bar (Herrin,
Illinois), Chevy's Bar (Herrin, Illinois), Knights of Columbus (Herrin Illinois),
McDonalds (Carterville, Illinois) and Amy Gayer's (now Amy Primo) residence
(Carterville, Illinois).

At one meeting between Complainant and Presley, Presley sought Complainant
out for his "skills" in obtaining information. This meeting occurred between
Complainant and Presley located at the Carterville, Illinois, McDonalds where Presley
5

was driving a Cambria, Illinois, Police Cruiser. Presley entered the McDonalds in a
Cambria, Illinois issued police uniform. Presley then offered to purchase meal items
where Complainant had a coffee and an Oreo McFlurry. Presley's purpose of the
meeting was to seek out Complainant "to find dirt on Bennie Vick" to publically destroy
Vick's reputation in order to win the upcoming election. Bennie Vick was Presley's
adversary in the election run-off for Williamson County Sheriff. Complainant informed
Presley that attacking his opponent" below the belt" was a bad idea, wrong, and that
would only create bigger problem for him. Complainant changed the subject to
Complainant's military service and Complainant's family members whom were a Circuit
Judge, a Snyder Howell, (deceased) and of his own great-grandfather Emanuel Bulliner,
(deceased) that was Williamson County Sheriff. Presley then brought up the election
again offering the Complainant: "...any position of your choice once I'm elected on the
department, but you'll have to leave the Navy of course." Presley further complained
that Vick had committed "mail fraud" and "lies all the time" and that "[he] really
need[ed] [my] help to get information on [Vick]." Complainant flatly refused the offer
and denied Presley any assistance in obtaining information on Vick. Presley further
complained that "Vick's just a f***ing stupid Democrat." Complainant stated to Presley
that although Complainant was a Republican, and Vick was a Democrat, Complainant
still had respect for Vick and would not investigate anything.

6

Complainant brought up Dennis Presley by his initials (D.P.) during his sentencing
hearing and again by his full name at his Evidentiary Hearing.

II. Frank Hutchison:

Complainant has had contact with a former inmate Frank Hutchinson that was
incarcerated at FCC Forrest City, Arkansas, where Complainant is presently
incarcerated. Hutchison is a resident of Carterville, Illinois, located in the Southern
District of Illinois. Hutchison provided Complainant the following information prior to
his departure from prison in June of 2020:

Hutchison complained that his wife "Kay" was "bothered late at night" by
"Williamson County" because he had not "registered yet." Hutchison stated his wife
informed Williamson county that he was still in prison at Forrest City. Hutchison further
seeked Complainant what he and his wife should do if that ever happened again.
Complainant then provided advice to Hutchison that he needed to inform his attorney of
the situation, which Hutchison stated that it was "Melissa Day up in Benton." Hutchison
conversed further stating his wife "Kay" was employed "at the college in Carbondale".
Hutchison made claims that he had previously held a job at "Carbondale Hospital."
Hutchinson indicated to Complainant that he received "a year and a day by [Judge]
7

Gilbert." Hutchison claimed Ms. Day knew of Hutchison's wife "at the college" and
that "they knew the same people." Hutchison claimed he received a lenient sentence due
to Ms. Day's "connections and knowing the same people around like (Judge] Gilbert"
and because "(Judge] Gilbert is President of SIU."

D. CONCLUSION:

The Complainant seeks that a Judicial Council be convened to act on his
Complaint, forthwith. Complainant's allegations are serious violations, judicial
misconduct, and further involves an Officer of the Court (Ms. Day). Complainant seeks
that Judge Gilbert's Memorandum and Judgment (Docs. 134 & 135) be VACATED,
forthwith. Complainant further seeks that Judge Gilbert to be REMOVED from
Complainant's criminal case and docket in its entirety.

Upon vacating the Order and Judgment of Complainant's 2255, he further seeks
that the United States Attorney DISMISS the Indictment in its entirety upon the
direction of a Circuit Judge.

8

I, MATTHEW L. STASZAK, HEREBY SWEAR UNDER PENALTY OF
PERJURY 28 U.S.C. SECTION 1746 THAT THE FOREGOING SECTIONS A,
and C ARE TRUE AND CORRECT TO THE BEST OF MY KNOWLEDGE BY
MY SIGNATURE BELOW.

Respectfully submitted, on this 24th day of November, 2020.

I W L. AS AK, COMPLAINANT
MA
Reg No. 24227-171
Federal Correctional Complex (Low)
P.O. Box 9000-Low
Forrest City, Arkansas 72336

9

Attachment "A-1"

IN THE UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF ILLINOIS

2

MATTHEW LEE STASZAK,
Petitioner,
5

v.
UNITED STATES OF AMERICA,

7

No. 3:15-cv-00020-JPG
Benton, Illinois

Respondent,
TRANSCRIPT OF PROCEEDINGS

9

EVIDENTIARY HEARING

VOLUME #3
10
11

BEFORE THE HONORABLE J. PHIL GILBERT
UNITED STATES DISTRICT JUDGE

12

APRIL 16, 2018

13

APPEARANCES:

14

FOR THE PETITIONER:

Terry M. Green, Esq.
Law Offices of Terry M. Green
1209 East Main Street, Suite #A
West Frankfort, IL 62896
618-937-3305
terrymgreenattorney@mthsi.cOm

FOR THE RESPONDENT:

Kit R. Morrissey, Esq.
Angela Scott, Esq,
Assistant United States Attorney
#9 Executive Drive, Suite 300
Fairview Heights, IL 62208
618-628-3700
Kit.Mortissey@usdoj.gov
Angela.Scott@usdoj.gov

15
16
17
18
19
20
21
22
23
24
25

Stephanie Rennegarbe, RDR, CRR, CBC
IL CSR #084-003232
301 West Main Street
Benton, IL 62812
618-439-7735
StephanieRennegarbe@ilsd.uscoutts.gov

04/16/2018 - Page 300

INDEX
2

RESPONDENT:
WITNESSES CALLED ON BEHALFHOF THE
3 ,
DX CX RDX RCX
PHILIP KAVANAUGH
5 , MELISSA DAY

30.5
376

335

361

368

6
7

EXHIBITS

8
9

EXHIBIT NO.
14
A
B
C
D

12

Govt.
Govt.
Govt.
GoVt.
Govt.

13

Govt. E

14

Govt. .F
Govt. G
Govt. H
Govt. I

10
11

15

DESCRIPTION

ID'D

Stipulation of Facts
389
Offer Letter
400
E-mailS
404
E-mails
408
ies
alt
Pen
Potential.
er)
pap
nk
(pi
ter
Let
408
Potential Penalties
.
er)
pap
ite
(wh
ter
Let
417
Letter to Investigator
424
E-mails
431
E-mails
444
E-mails

ADMT'D
304
390.
421
407
411
411
419
426
433
447

16
17
18
19
20
21
22
23
24
25

04/1.6/2018 - Page 301

1 that's not current.
2 Q. Okay. Has your license always been in good standing in
3 all the jurisdictions in which you have been licensed?
4 A. Yes, ma'am.
5 Q. Have you ever been subject to disciplinary proceedings by
6 any state or federal disciplinary body?
7 A. No, ma'am.
Q. Has a Federal Court ever found you to have rendered
ineffective assistance of counsel -10 A. No, ma'am.
11 Q. -- or disciplined you in any way?
12 A. No, ma'am.
13 Q. Okay. You also serve as a professor teaching Trial
14 Advocacy, is that correct, Ms. Day?
15 A. Yes, ma'am.
16 Q. Where is that, please?
17 A. Southern Illinois University School of Law.
18 Q. Okay. And you have done that since about 2012?
19 A. Yes.
20 Q. And you specifically teach Trial Advocacy, correct?
21 A. Yes, I do.
22 Q. What does that mean?
23 A. I teach the skills necessary for young attorneys to try
24 cases in a courtroom with a jury. I actually walk the
25 students through presentations of both a bench trial, which is

04/16/2018 - Page 38.0

just to a Judge, and to jury trials, and that's how they are
2

graded is based upon their -- I won't say their skill, but

3

their ability to complete the tasks that are necessary to

4

conduct both a benCh trial and a jury trial. We do individual

5

skills working on all the elements of a jury trial.

6

Q. Okay. Very good.

7

MS. MORRISSEY: Your Honor, at this time I would ask

8

the Court to take judicial notice for the record that

9

Mr. Staszak was arrested following the fugitive status on June

10

2, 2013.

11

THE COURT: Judicial notice taken.

12

MS. MORRISSEY: Additionally, Your Honor, that on

13

June the 3rd, 2013, the day following Mr. Staszak's

lA

apprehension, there was an initial appearance in this

15

courthouse and a Court order was entered requiring Mr. Keefe

16

to provide discovery to the Federal Public Defender's Office.

17

THE COURT: So noted.

18

MS. MORRISSEY: Thank you, Your Honor.

19

Q. (By Ms. Morrissey) Ms. Day, when did you first -- Do you

20

recall the date of your assignment to the Matthew Staszak

21

case?

22

A. I believe I was assigned on the 3rd or 4th of June, and I

23

had the discovery materials very shortly thereafter.

24

Q. All right. So, Mr. Keefe had provided his -- the

25

discovery materials to you along with his file, correct?

04/16/2018 - Page 381

Attachment "A-2"

105

rhh

t. a-4; ike< 1r ka- 26ea o .. 4 m to‘d
1 FM) fred04 . 2-cv4.0,- P74,1
1114% A° cri re).-e-Kt(1:41
+11 Pliwhj-sizritompS
Mime )1.s

4e5r-dis%jas
ea-ryit, Oiler and 1174errapW cur c-OnWILCS-lcin
Ditf-e40 4 19541 inn
he,c.uomfeci
60;)1 A int
g0;n3
ors,
l
1y 4044_
)
A14;,,t4i
dike
yrIA,
)1-0,)
-74,e,
gm)
clois244
&nisi, 1244- hi) iikt,A-4 16 4-4'M TPA_ An ilioP4'ietA sold giliarks
fawner a,as " itil‘5•••<el 1-)71 Li r
, cits
e 1111

rm,„,

,_soi

_______je,m_ttuta.__owtt_Ue.._.asiecaA/3/6_J2te_r/Lqfiez_kbaeknidozek-iaof
n cbtaSzaA ask-ad
SW144- plc\ AlekeWriA /PA
bJatqk-51-Cilyhtfrni

Allot frOh-Srill`et
ao. a

4C50 9t /6144‘ dPLA 4 4 'ebn

IPA-1-..-ozo

PeR

f

761336

•

tt.

Attachment "A-3"

IN RE COMPLAINT AGAINST DISTRICT JUDGE J. PHIL GILBERT
UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT
2016 U.S. App. LEXIS 12320
No. 07-15-90073
June 1, 2016, Decided
CASE SUMMARYAIthough a judge's appointment to a state university's board of trustee's violated
Canon 4F of the Code of Conduct for United States Judges, the Seventh Circuit Judicial Council adopted
a special committee's recommendation that a complaint be dismissed, as the judge, who was in senior
status, took effective corrective action.
OVERVIEW: HOLDINGS: [11-Judge's appointment to a state university's board of trustee's violated
Canon 4F of the Code of Conduct for United States Judges, which allowed a governmental appointment
only if it was one that concerned the iaw, the legal system, or the administration of justice;
121-Appointment did not satisfy this condition, whether or not the university had a law school, as a
university's law school was a small part of its operations and to say that an appointment having anything
to do with the law satisfied Canon 4F would be to dilute the rule so substantially as to be ineffectual;
[31-As the judge took senior status several years before accepting the appointment, arranging not to hear
cases that concerned the State of Illinois was an appropriate corrective action, and the Special
Committee thus recommended that the Judicial Council dismiss the complaint.
OUTCOME: The Seventh Circuit Judicial Council adopted the special committee's recommendation that
the complaint be dismissed on the ground that the subject judge promised to take effective corrective
action.
LexisNexis Headnotes

Legal Ethics > Judicial Conduct
Canon 4B(1) of the Code of Conduct for United States Judges provides that a judge should not serve on
an organization if that organization is regularly involved in litigation before him or his colleagues.

Legal Ethics > Judicial Conduct
Canon 4F of the Code of Conduct for United States Judges provides that a judge may accept a
governmental appointment that concerns the law, and Canon 4B of the Code of Conduct for United
States Judges provides that it is permissible to engage in civic and charitable activities (provided that the
judge does not render legal advice or participate in fundraising).

Legal Ethics > Judicial Conduct
Canon 4F of the Code of Conduct for United States Judges provides that a judge may accept •
appointment to a governmental committee, commission, or other,position only if it is one that concerns
the law, the legal system, or the administration of justice, or if appointment of a judge is required by •
federal statute. A judge should not, in any event, accept such an appointment if the judge's governmental
duties would tend to undermine the public confidence in the integrity, impartiality, or independence of the
CIRHOT

1

0 2016 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use d this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

judiciary. A judge may represent the judge's country, state, or locality on ceremonial occasions or in
connection with historical, educational, and cultural activities.
Legal Ethics > Judicial Conduct
Canon 4F of the Code of Conduct for United States Judges says that a governmental appointment
(unlike service in a private organization) is appropriate only if it is one that concerns the law, the legal
system, or the administration of justice.
Legal Ethics > Judicial Conduct
A university's law school is a small part of the university's operations. To say that an appointment having
anything to do with the law satisfies the first sentence of Canon 4F of the Code of Conduct for United
States Judges would be to dilute the rule so substantially as to be ineffectual — in a complex world,
almost everything is related to everything else. A judge who decided to run for the state legislature might
contend that, because the state's system of public universities contains one or more law schools, service
in the legislature is authorized by Canon 4F. In Advisory Opinion 44, the Committee on Codes of
Conduct draws a line by saying that, to be authorized, the group on which the judge serves must be
limited to the law or legal system (or at least that this must be its predominant end). Some line is
essential, and the line in Advisory Opinion 44 has the virtue of being easy to understand and apply.
Legal Ethics > Judicial Conduct
Canon 4F of the Code of Conduct for United States Judges distinguishes service on public bodies from
service with private organizations, which is covered by Canon 4B. This difference reflects a belief that a
federal judge normally should not hold an appointment in a different branch•of the federal government
(unless required by federal statute) or under a different sovereign. Some state judicial systems
categorically forbid all non-judicial appointments. The first sentence of Canon 4F allows such
appointments when limited to legal matters, but the norm against serving multiple sovereigns (or multiple
branches of government) remains strong and must be enforced.
Legal Ethics> Judicial Conduct
A section of a proviso that appears at the end of the. Code of Conduct for United States Ju'dges (Code),
captioned "Compliance with the Code of Conduct" provides in Part C that a judge who is retired under 28
U.S.C.S. §§ 371(b) or § 372(a) (applicable to Article III judges), or whois subject to recall under 28
U.S.C.S. § 178(d) (applicable to judges on the Court of Federal Claims), or who is recalled to judicial
service, should comply with all the provisions of this Code except Canon 4F, but the judge should refrain
from judicial service during the period of extrajudicial appointment not sanctioned by Canon 4F. A senior
judge is "retired" for this purpose and must comply with all provisions of the Code except Canon 4F.
Legal Ethics > Judicial_ Conduct __
Canon 4 of the Code of Conduct for United States Judges begins with this statement of its objective: a
judge may engage in extrajudicial activities, including law-related pursuits-and civic, charitable,
educational, religious, social, financial, fiduciary, and governmental activities, and may speak, write,
lecture, and teach on both law-related and nonlegal subjects. However, a judge should not participate in
extrajudicial activities that detract from the dignity of the judge's office, interfere with the performance of
the judge's official duties, reflect adversely on the judge's impartiality, lead to frequent disqualification, or
violate the limitations set forth below.

CIRHOT

2

0 2016 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use d this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Civil Procedure > Judicial Officers > Judges > Disqualifications & Recusals> Grounds >
Financial interests
Although 28 U.S.C.S. § 455(b)(4) makes disqualification mandatory when a judge or member of the
judge's household has a financial interest, no matter how small, § 455(d)(4)(iv) says that ownership of
governmental securities is not a "financial interest" for the purpose of § 455(b) unless the litigation could
have a substantial effect on their value.
Legal Ethics > Judicial Conduct
For an active judge, a need to avoid suits against the state in which the judge sits would lead to frequent
disqualification. But senior judges are different, and not just because Part C of the compliance section of
the Code of Conduct for United States Judges makes an exception for them. Senior judges are different
because they are entitled to hear fewer cases than active judges, and they are also entitled (in most if
not all districts) to limit which cases they hear'by subject-matter or the identity of the litigant. Some
senior judges avoid criminal cases. Some opt out of all suits against the Commissioner of Social
Security. It is within a senior judge's prerogative to avoid cases involving state litigants by reducing the
caseload, opting out by the identity of the litigant, or both. A judge with the privilege of both cutting back
on workload and excluding selected categories of litigants cannot be thought to be engaged in
misconduct by taking an appointment that will lead to the exclusion of a single category of litigant.
Legal Ethics > Judicial Conduct
The commentary to Rule 3 of the Rules for Judicial-Conduct and Judicial-Disability Proceedings
observes that the Code of Conduct for United States Judges is in many respects aspirational, and that it
is possible to depart from the Code without necessarily engaging in action prejudicial to the effective and
expeditious administration of the business of the courts, the subject of proceedings under the 1980 Act.
28 U.S.C.S. § 351(a). The use of the word "should" in Part C of the compliance section of the Code
shows that its approach is one of those aspirational norms. Other ways to allow public service while
ensuring expeditious and ethical handling of judicial business are possible.
Legal Ethics > Judicial Conduct
Rule 20(e) of the Rules for Judicial-Conduct and Judicial-Disability Proceedings allows the Judicial
Council to recommend to the Director of the Administrative Office of the United States Courts that public
funds be made available to reimburse a subject judge's expenses after a corrective-action closure.
Legal Ethics > Judicial Conduct
Civil Procedure> Judicial Officers > Judges > Disqualifications & Recusals > Federal Judges
Nothing in 28 U.S.C.S. § 455 or the Canons of the Code of Conduct for United States Judges requires an
entire district to recuse itself just because one judge is disqualified.
Opinion

MEMORANDUM
Complainant filed a judicial misconduct complaint against District Judge J. Phil Gilbert. Chief Judge
Diane P. Wood appointed a Special Committee to investigate the complaint pursuant to Rule 11(f) of

CIRHOT

3

40 2016 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

the Rules for Judicial-Conduct and Judicial-Disability Proceedings. The Special Committee issued
the attached report which the Seventh Circuit Judicial Council adopted.*
This complaint is dismissed pursuant to Rule 20(b)(1)(B) on the ground that the subject, judge has
promised to take effective correction action.
Footnotes

Chief District Judge Michael J. Reagan recused himself in this matter. Chief District Judge William
M. Conley concurs in the dismissal of the complaint.

CIRHOT

4

©'2016 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

THE JUDICIAL COUNCIL OF THE SEVENTH CIRCUIT
219 South Dearborn Street
Chicago, Illinois 60604

June 1, 2016

No. 07-15-90073

IN RE COMPLAINT AGAINST DISTRICT JUDGE J. PHIL GILBERT

MEMORANDUM

Complainant filed a judicial misconduct complaint against District Judge J. Phil Gilbert.
Chief Judge Diane P. Wood appointed a Special Committee to investigate the complaint
pursuant to Rule 11(f) of the Rules for Judicial-Conduct and Judicial-Disability Proceedings.
The Special Committee issued the attached report which the Seventh Circuit Judicial Council
adopted.*
This complaint is dismissed pursuant to Rule 20(b)(1)(B) on the ground that the subject
judge has promised to take effective correction action.

*Chief District Judge Michael J. Reagan recused himself in this matter. Chief District
Judge William M. Conley concurs in the dismissal of the complaint.

